<html>
<title> - THE FBI HEADQUARTERS CONSOLIDATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   THE FBI HEADQUARTERS CONSOLIDATION

=======================================================================



                                (113-5)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation





                  U.S. GOVERNMENT PRINTING OFFICE
79-895                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY
                                ------                                7

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                  LOU BARLETTA, Pennsylvania, Chairman
THOMAS E. PETRI, Wisconsin           ELEANOR HOLMES NORTON, District of 
JOHN L. MICA, Florida                    Columbia
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL H. MICHAUD, Maine
BLAKE FARENTHOLD, Texas, Vice Chair  DONNA F. EDWARDS, Maryland
MARKWAYNE MULLIN, Oklahoma           RICHARD M. NOLAN, Minnesota
MARK MEADOWS, North Carolina         ANN KIRKPATRICK, Arizona
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
VACANCY                              TIMOTHY J. WALZ, Minnesota
BILL SHUSTER, Pennsylvania (Ex       NICK J. RAHALL, II, West Virginia
    Officio)                           (Ex Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. Steny H. Hoyer, a Representative in Congress from the State 
  of Maryland....................................................     4
Hon. Frank R. Wolf, a Representative in Congress from the State 
  of Virginia....................................................     4
Hon. James P. Moran, a Representative in Congress from the State 
  of Virginia....................................................     4
Hon. Donna F. Edwards, a Representative in Congress from the 
  State of Maryland..............................................     4
Hon. Gerald E. Connolly, a Representative in Congress from the 
  State of Virginia..............................................     4

                                Panel 2

Dorothy Robyn, Commissioner, Public Buildings Service, U.S. 
  General Services Administration................................    12
Kevin L. Perkins, Associate Deputy Director, Federal Bureau of 
  Investigation..................................................    12

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Chris Van Hollen, of Maryland...............................    36
Hon. Robert J. Wittman, of Virginia..............................    37

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Steny H. Hoyer..............................................    38
Hon. Frank R. Wolf...............................................    40
Hon. James P. Moran..............................................    42
Hon. Donna F. Edwards............................................    44
Hon. Gerald E. Connolly..........................................    47
Dorothy Robyn:

    Prepared statement...........................................    50
    Answers to questions from the following Representatives:

    Hon. Lou Barletta, of Pennsylvania...........................    53
    Hon. Donna F. Edwards, of Maryland...........................    55
Kevin L. Perkins:/

    Prepared statement...........................................    58
    Answers to questions from the following Representatives:

    Hon. Lou Barletta, of Pennsylvania...........................    62
    Hon. Donna F. Edwards, of Maryland...........................    66

                       SUBMISSIONS FOR THE RECORD

Hon. Donna F. Edwards, a Representative in Congress from the 
  State of Maryland, submission of the following items for the 
  record:

    U.S. General Services Administration, ``Report of Building 
      Project Survey for the Federal Bureau of Investigation, 
      Headquarters Consolidation, Washington, DC, Metropolitan 
      Region,'' (2011)...........................................    69
    Brookings Institution Center on Urban and Metropolitan 
      Policy, ``A Region Divided: The State of Growth in Greater 
      Washington, DC,'' (1999)...................................    76

[GRAPHIC] [TIFF OMITTED] 79895.001

[GRAPHIC] [TIFF OMITTED] 79895.002

[GRAPHIC] [TIFF OMITTED] 79895.003

[GRAPHIC] [TIFF OMITTED] 79895.004

[GRAPHIC] [TIFF OMITTED] 79895.005

[GRAPHIC] [TIFF OMITTED] 79895.006



                   THE FBI HEADQUARTERS CONSOLIDATION

                              ----------                              


                       WEDNESDAY, MARCH 13, 2013

                  House of Representatives,
              Subcommittee on Economic Development,
        Public Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:10 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Lou Barletta 
(Chairman of the subcommittee) presiding.
    Mr. Barletta. The committee will come to order. Welcome to 
our first subcommittee hearing. And thankfully it was not 
rained out today.
    I would like to thank Chairman Shuster for the opportunity 
to chair this subcommittee. I also look forward to working with 
Ranking Member Norton and continuing this subcommittee's 
bipartisan tradition. Let me also thank our distinguished 
colleagues from the House for testifying today. Your presence 
speaks volumes about your concern for the FBI and your 
communities. And finally, let me welcome Dr. Robyn from GSA and 
Mr. Perkins from the FBI.
    I chose the FBI headquarters for our first hearing, because 
it is one of the most significant projects we may consider this 
year. Several studies have documented the functional, 
operational, and security problems with the Hoover Building on 
Pennsylvania Avenue.
    The FBI has a vital mission. It has made a compelling case 
for relocating its headquarters function. However, a new 
facility would cost over $1 billion, and financing it in 
today's budget climate will be extremely challenging. Direct 
appropriations are doubtful, and OMB scoring rules typically 
preclude leases that result in Federal ownership. In fact, I 
have been told OMB has not approved a long-term ground lease 
with a Federal lease-back, as the FBI is proposing, since the 
scoring rules changed in the early 1990s. Yet, if we are 
successful, this has the potential for becoming a model for 
public-private partnerships in the future.
    When it comes to this proposal, the committee has two 
general goals: the project should meet the security and 
operational requirements of the FBI, and it needs to be a good 
deal for the taxpayers. Achieving these goals raises a host of 
questions that need to be addressed.
    For example, if the FBI must leave Pennsylvania Avenue, is 
a consolidated campus the best alternative? How can Congress 
limit the financial risks to the taxpayer by such a large and 
complex project? How can the committee ensure a fair and 
competitive site selection process? Can a consolidated facility 
be constructed or purchased for a reasonable cost? What is the 
value of the current site on Pennsylvania Avenue, and what 
should be done with it? Is GSA capable of managing such a 
complex project?
    These are some of the important questions we hope to 
explore during today's hearing so we can ensure the FBI's 
requirements are met and the interests of the taxpayer are 
protected. I look forward to our witnesses' testimony.
    I now call on the ranking member of the subcommittee, Ms. 
Norton, for a brief opening statement.
    Ms. Norton. Why, thank you very much, Mr. Chairman. And I 
congratulate you on your first hearing. I look forward to 
working with you. I note that both you and Chairman Shuster 
have started this committee and this subcommittee off to a very 
fast and a very good start, taking up important issues from the 
get-go. And I appreciate the start you have made.
    I am pleased, especially, to welcome all of today's 
witnesses, and especially my colleagues from across the region. 
But I think it is important to clarify what is before us today. 
What is before us today is simply a hearing on the GSA's 
Request for Information. That is all that the GSA has asked 
for, all it has solicited, information only.
    Now, an RFI, as we call it, can lead to an actual request 
for proposals. In this case, to consolidate the FBI into a new 
headquarters. And there is agreement by the FBI, by the GSA, 
and by the GAO, that a new headquarters is necessary. The 
Pennsylvania Avenue headquarters has been falling apart now for 
many years. And it does not allow even key personnel to be 
housed in its headquarters building.
    As important as the FBI is as an agency, constructing a new 
or otherwise obtaining a new FBI is really no different from 
any other Federal construction. The GSA and the GSA alone must 
conduct a competition. And the GSA must make the decision in 
the best interest of the taxpayer. And I can say in more than 
20 years on this subcommittee, Mr. Chairman, I have never seen 
any political decisions made by the GSA, and I am sure they 
will keep that very strong record up.
    Everybody here hopes that their site will be selected, 
including the site from the District of Columbia. And everyone 
here is, of course, doing the right thing to market their 
sites. Sites are marketed not only by developers, they are also 
marketed by Members of Congress. I regard my role, however, as 
ranking member, to ensure that there is fair competition, so 
that the taxpayer gets top value.
    The staff memo raises important questions. And the 
responses from the GSA today are going to be very important to 
the subcommittee in evaluating this process. I appreciate the 
clarification in the staff memo, working with my friends on the 
other side, because there is a--the Senate resolution--do we 
have that? Do we have that? The Senate resolution--and isn't it 
interesting, when I say there should be no political 
interference? The Senate resolution has not been adopted by the 
GSA, and has led some members of the press to believe that the 
site could be spread throughout the region.
    It is clear that the RFI is in the GSA--is the GSA 
resolution. And it says the location of the new FBI 
headquarters must be no more than 2 miles from a Metrorail 
station, not 2.5 miles from the Capital Beltway. And the 
resolution is drawn that way to maximize competition and 
because of the longstanding policy of this committee, 
especially in this congested region, that we must facilitate 
the use of Metrorail and mass transportation.
    We know that the 20 locations of the FBI has made it 
impossible for the agency to conduct its business as a security 
agency should be. We are looking for lower space allocations. 
We believe that the GSA could consolidate in as little as 2 
million square feet. Its appropriation, if it were not leasing 
space as it is now across the region, would be cut by nearly 
$45 million. The GSA is compelled by the policy of the 
administration and of this subcommittee to use the new space 
utilization, which reduces substantially the amount of space 
for each employee. As for the space on Pennsylvania Avenue, the 
headquarters on Pennsylvania Avenue, it is the ugliest building 
in town. Good riddance.
    The focus of the first panel will be, of course, on their 
preferred sites. It is the second panel that is critical to our 
work, especially the use that the RFI proposes to make of 
Section 412 authority that allows it a range of options to 
engage in transactions, and does not require upfront spending 
by the Federal Government.
    I appreciate that Chairman Barletta has focused also on the 
OMB's scoring rules, which do not align with CBO's rules. And 
those scoring rules have cost the Federal Government billions 
of dollars over time. And I believe that Congress may have to 
intervene if those rules come into play again.
    The project presents many challenges, but it also presents 
many opportunities, and very specifically the opportunity on 
the part of GSA to engage in a normal real estate transaction, 
instead of treating real estate as a commodity, losing money 
for the taxpayer. Thank you very much, Mr. Chairman.
    Mr. Barletta. Thank you, Ranking Member Norton. At this 
time I would like to recognize the chairman of the full 
committee, Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Barletta, and thanks for 
holding this hearing today. This is an important hearing. 
Obviously, we are joined by four distinguished colleagues of 
ours, and two from Virginia, two from Maryland. So it is 
obviously important to the region, as well as the ranking 
member, who, of course, represents the District of Columbia. 
But I welcome you here to the committee today.
    And again, I appreciate you holding this hearing, Mr. 
Chairman. The FBI is one of the most important institutions in 
this Nation. It keeps us safe. We need to make sure that we 
find them a location that is best suited for them, and making 
sure that it is efficient, it is modern, and it is secure.
    So, as we move through this process, I look forward to 
getting input and hearing from everybody. And again, thank all 
of you for being here. And thank you, Mr. Chairman, for holding 
this hearing.
    Mr. Barletta. Thank you, Mr. Chairman. I now call on the 
ranking member of the full committee, Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. I have no opening 
comments. I want to hear from my colleagues first.
    Mr. Barletta. Thank you. We will have two panels today. The 
first is a Members panel that includes the Honorable Steny 
Hoyer, the Honorable Frank Wolf, the Honorable Jim Moran, the 
Honorable Donna Edwards, and the Honorable Gerald E. Connolly.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Since your 
written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Representative Hoyer, you may proceed.

TESTIMONY OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
       FROM THE STATE OF MARYLAND; HON. FRANK R. WOLF, A 
  REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA; HON. 
JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
 VIRGINIA; HON. DONNA F. EDWARDS, A REPRESENTATIVE IN CONGRESS 
  FROM THE STATE OF MARYLAND; AND HON. GERALD E. CONNOLLY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Hoyer. Thank you very much, Mr. Barletta, and I want to 
thank Chairman Shuster, Ranking Member Norton, and Ranking 
Member Rahall for their attendance. I thank the committee for 
holding this hearing to examine the possibility of a new 
consolidated FBI headquarters, and for the opportunity to 
testify on the merits of relocating to Prince George's County, 
Maryland, where I grew up and where I now represent, and have 
for the last 32 years.
    The J. Edgar Hoover Building is in disrepair and does not 
comply with today's high-security standards. I think everybody 
agrees on that. The agency suffers from space constraints and 
security challenges. To restore the current building is neither 
cost effective nor feasible. In addition, roughly half the 
headquarters staff are in leased space around the capital 
region because there is insufficient space within the J. Edgar 
Hoover Building.
    Consolidation will save money and enhance the FBI's ability 
to do its work. The dispersion of staff negatively impacts the 
FBI's ability to perform its mission. Consolidating and 
relocating the headquarters in a timely manner will help ensure 
that the FBI can carry out that mission and save our taxpayers 
at least $44 million annually in the process.
    Any new location for a possible new consolidated FBI 
headquarters must meet several requirements. First, it must 
have a minimum of 45 to 50 acres. Secondly, it must be located 
within the national capital region. Thirdly, it must have 
access to public transportation, such as Metrorail. And it must 
have space to house approximately 11,000 personnel.
    With a variety of potential sites in close proximity to 
Washington with sufficient available acreage and close to mass 
transit, I believe that Prince George's County is an ideal 
location for the new headquarters. We will try to make that 
case over the next months, and we will look forward to working 
with our colleagues towards that end.
    Prince George's County, Mr. Chairman, as you may know, has 
ample undeveloped land near the Metro. In fact, more so than 
any other jurisdiction: the MARC commuter rail, the Capital 
Beltway, a variety of Metro and county transit bus lines and 
regional bike trails. The sites can provide a secure and 
convenient campus setting.
    Twenty-five percent of the region's Federal workforce 
resides in Prince George's County, and our State is already 
home to a plurality of the FBI's employees. According to a 
Maryland State study released in September, 43 percent of FBI 
headquarters employees live in Maryland, 17 percent live in 
Washington, DC, and 33 percent we understand live in Virginia. 
FBI personnel and their families, I suggest, could benefit from 
a lower daily transportation expense, Prince George's County's 
vibrant neighborhoods, and an easier commute.
    In addition, Maryland has recently seen unprecedented 
growth in the field of cybersecurity, which would provide the 
FBI with greater access to experts in the field, as well as a 
highly skilled workforce. Our State is home to--and I think 
this is very important: the U.S. Cyber Command at Fort Meade; 
the National Security Agency; the Defense Information Systems 
Agency; the National Cybersecurity Center of Excellence 
headquarters at the National Institute of Standards and 
Technology; the Department of Defense's Cyber Crime Center, 
known as DC3; and the Intelligence Advanced Research Projects 
Activity, IARPA.
    Our State's institutions of higher education, including the 
University of Maryland at College Park, just a few miles from 
the projected site, and Bowie State University, also just a few 
miles from the projected site, both located in Prince George's 
County, are training the next generation of leaders in 
cybersecurity. Numerous companies and contractors in the field 
of cybersecurity are located in Prince George's County as well, 
Mr. Chairman, not far from others operating in Montgomery and 
Anne Arundel County.
    I think that Prince George's County will make its case with 
several potential secure and convenient locations, and a 
significant portion of the region's Federal workforce is the 
right choice for the new FBI headquarters. I will continue to 
work with you, Mr. Chairman, with your ranking member, Ms. 
Norton, and with Mr. Shuster and Mr. Rahall as we go forward 
assessing the merits of each of these sites. Local officials in 
Maryland and the Governor advocate for any proposed 
consolidated FBI headquarters to be relocated in Prince 
George's County. Our State is united in that effort, including, 
as you just recently heard, the leadership of Montgomery 
County, Mr. Leggett.
    So, I thank you for this opportunity to appear, look 
forward to working with you. We believe that the Prince 
George's County proposal will prove to be, from the taxpayers' 
standpoint, which is obviously our principal concern, and from 
the FBI's standpoint and national security, to be the best 
site. And we look forward to working with you towards that end.
    I thank you, thank the chair and the committee for its 
attention.
    Mr. Barletta. Thank you for your testimony, Representative 
Hoyer.
    Representative Wolf, you may proceed.
    Mr. Wolf. Sure. Thank you, Mr. Chairman. Thank you and also 
Ms. Norton, too. I will try to summarize quickly.
    Obviously, I am here to support the Bureau moving its 
headquarters to the State of Virginia. The entire Virginia 
delegation, the Governor, everyone, is in complete agreement.
    It is a logical choice. A number of FBI agents live in 
Virginia. The Washington field office resident agency is in 
Virginia. The FBI Academy is in Virginia at Quantico, the back-
and-forth and back-and-forth between the two. The FBI new 
record facility is slated to be built in Virginia. The 
recordkeeping fingerprint is out in West Virginia, which is 
relatively close. The CIA is in Virginia. The CIA is in 
Langley. The CIA is in Herndon. The CIA is in Reston. The CIA 
is on Route 28. The NRO is in Virginia. And I could go on. But 
having the proximity--FBI, NRO, CIA, all these agencies 
together, along with the West Virginia and the new 
recordskeeping in Winchester, it makes a big difference.
    There are a number of potential sites in Virginia that meet 
the needs of the Bureau. I am not coming in for any one 
particular site, whether they are in Fairfax County, Prince 
William County, or in Loudoun County.
    As the process gets underway there, I think it is important 
that the Government get the best deal. And I would encourage or 
end by this last comment. If I say anything that sticks, 
hopefully this will be. I would encourage the subcommittee not 
to limit its search to sites no further than 2.5 miles from the 
Capital Beltway as the Senate prospectus requires. That would 
arbitrarily prevent sites in Loudoun and Prince William. We 
expect the procurement process to be open and fair. So open and 
fair, and remove any strictures that sort of, when you write 
them down, you in essence are not saying the name but you are 
forcing it to go. It ought to be open and fair.
    And with that, I thank you for the hearing very much.
    Mr. Barletta. Thank you for your testimony, Representative 
Wolf.
    Now, Representative Moran, you may proceed.
    Mr. Moran. Thank you, Chairman Barletta and Shuster and 
Ranking Members Norton and Rahall. We appreciate the 
opportunity to get our views before this subcommittee as a 
region.
    Now, I, along with a united Virginia congressional 
delegation, do believe that northern Virginia would make the 
ideal location for the new FBI headquarters. And the reasons 
are the following, and they do mirror exactly what Mr. Wolf had 
to say, although we didn't confer in advance. But I think you 
will find the same conclusions that we came to.
    Northern Virginia is home to a majority of FBI personnel in 
the region. FBI people live in northern Virginia, for the most 
part. The FBI Academy and the FBI Laboratory, the premier crime 
lab in the U.S., employ over 500 scientific experts and special 
agents. They are both located in Quantico, Virginia. The 
northern Virginia resident agency, field office for several 
hundred agents, is located in Prince William County. And 
Winchester, Virginia, will be the future home of the FBI's 
central records complex. A headquarters location in northern 
Virginia would provide substantial logistical benefits and 
collaborative opportunities.
    In addition, the FBI occupies a number of discreet 
facilities elsewhere in northern Virginia, and the region is 
also home to the National Counterterrorism Center and the 
headquarters of the Central Intelligence Agency. An FBI 
headquarters location in Virginia would increase opportunities 
for cross-agency coordination and promote increased operational 
efficiency, saving time and transportation costs.
    Northern Virginia offers geographically advantageous 
locations roughly equidistant from Quantico and Washington, DC, 
offering easy access to other Federal agencies, Congress, and 
the aforementioned major FBI facilities. Our region also has 
some of the best schools in the country and is consistently 
ranked one of the best places to live, work, and raise a 
family. Taken together, these attributes would help to minimize 
the adverse transition and transportation effects on employees 
assigned to the new headquarters.
    Now, my top priority, of course--our top priority--is to 
support efforts to locate the FBI headquarters in Virginia. But 
I would like to mention a couple of facilities in particular. 
There is a Center for Innovative Technology property, their 
substantial amount of land is located right at the--at Route 28 
and the Dulles Toll Road, and it will have access to the Silver 
Line Metro station.
    Another property that I believe would be ideal for this 
facility is a GSA warehouse located in Springfield, Virginia. 
It is situated on approximately 60 acres. It could easily 
accommodate over 3.5 million square feet of highly secure 
office space, and would allow for the productive use of 
underused Government-owned real estate. It is right at a Metro 
station. It would provide ample space for the FBI to 
accommodate potential future growth.
    Given recent local challenges that were created by BRAC 
relocations, I think this subcommittee should consider sites 
that would require the least amount of off-site infrastructure. 
It is expensive, it is time-consuming, and I don't think that 
it is appropriate to have to invest in substantial 
infrastructure to accommodate a new FBI building.
    In this regard, though, the Springfield location is unique, 
because we have substantial improvements to Interstate 395, on 
which it is located. We have the express lane project on the 
beltway, and the completion of the Fairfax County Parkway to 
Fort Belvoir, all going along this site. So more than $1 
billion has been invested in the road network in and around 
this particular GSA warehouse site. It is also located, as I 
say, next to the Franconia-Springfield Metro station, next to 
Amtrak, and next to VRE rail lines, and it is served by a very 
extensive bus system. So the presence of a high-quality road 
network and mass transit options would promote efficient 
traffic flow and minimize the impact on the local community.
    Now, as GSA proceeds with its selection process, I know 
that this competition will be conducted in a completely open 
and fair manner. Unlike the Senate-passed prospectus, I would 
hope that we would not prevent consideration of potential sites 
in the Dulles area. I urge the subcommittee to oppose 
unnecessary restrictions on the location of the new FBI 
headquarters. The Senate was more restrictive; I don't think 
there is a need for the House to do so. The decision of where 
to locate this facility should be based solely on what is best 
for the FBI's ability to fulfill its vital law enforcement and 
national security missions through a transparent process, free 
of political considerations.
    I am fully confident that sites in Virginia will stand out 
among all the options, and I thank you again for inviting us to 
testify and for your continued efforts to ensure the best 
possible location is chosen as the new headquarters for the 
FBI. Thank you, Mr. Chairman.
    Mr. Barletta. Thank you for your testimony, Representative 
Moran.
    Representative Edwards, you may proceed.
    Ms. Edwards. Thank you, Chairman Barletta and Ranking 
Member Norton. I really appreciate the ability to testify 
today. And I look forward to our work together, as a 
subcommittee, to make sure that we are reporting a resolution 
that adequately reflects the needs of the FBI, but also is 
respective of the needs of taxpayers.
    The future location of the FBI headquarters is vital to the 
men and women of the Bureau and to their mission. But it is 
also vital to the people of my congressional district, 
specifically in Prince George's County, where I live, which 
Congressman Hoyer and I represent here in this chamber. We are 
here today because it is critical that the FBI consolidate its 
operations to optimize the agency's ability to meet its vital 
mission and make the best use of taxpayer resources.
    It has been my experience on this committee that when we 
have considered--and Ranking Member Norton understands this--
when we have considered these matters in front of our 
committee, our goal is about fairness of process, to make sure 
that there is the most open competition possible that then 
maximizes the taxpayers' dollars.
    It has been almost 40 years since the FBI actually moved to 
the Hoover Building, and we know it has outgrown it. We know 
that it can no longer provide the security, infrastructure 
needs, and space required of the world's premier law 
enforcement agencies. In addition to its responsibilities here 
at home today, the FBI is a key leader, globally, in meeting 
our law enforcement needs.
    Here in the national capital region, the FBI occupies more 
than 3 million square feet of space over 21 locations that 
results in $168 million of leasing costs alone. It is pretty 
staggering. But surprisingly, the Hoover Building currently 
only houses 52 percent of the FBI's headquarters staff. This 
dispersed office structure is impeding the Bureau's ability to 
meet its core mission, due to challenges in managing its 
headquarters, divisions, and offices effectively, and while 
also collaborating and sharing information across functions.
    It--to comply with 9/11 security--post-9/11 security 
requirements, the FBI has looked to consolidate facilities into 
one headquarters. In response to a 2011 GAO study, the FBI 
conducted a security assessment that documented threats and 
analyzed building security requirements consistent with the 
Interagency Security Committee standards. And so it is a 
critical component of our Nation's security apparatus that the 
agency has to comply with these enhanced standards.
    So, I want to talk for a minute about Prince George's 
County. Prince George's County offers an appropriate, I think, 
opportunity for development and for the FBI to relocate its 
headquarters. I think it offers a competitive combination, as 
Mr. Hoyer has indicated, that meets the requirements of the 
FBI, also meets the requirements of the resolution that came 
out of the Senate, and has taxpayer value with the finest 
location and access to world-class facilities.
    Joint Base Andrews, the President's airport, is in Camp 
Springs in Prince George's County. That would provide the FBI 
with a secure facility from which to depart anywhere in the 
world to meet its global responsibilities for our domestic law 
enforcement needs. Fort Meade is home to the National Security 
Agency, the Nation's largest leader in cybersecurity and its 
intelligence-gathering apparatus. It is another secure facility 
located in nearby Anne Arundel County, a part of which I also 
have the honor of representing.
    As Mr. Hoyer has indicated, the University of Maryland, 
Bowie State University, also provides nationally ranked 
disciplines in criminal justice, computer forensics, biological 
sciences, language, homeland, cyber, and national security. It 
is home to the Department of Homeland Security's Center of 
Excellence and terrorism studies, and a national consortium of 
leading terrorism studies programs across the country.
    Prince George's County is also home, as we have heard many 
times in this committee, to 15 Metro stops, which is the most 
in this region, offering all kinds of accessibility throughout 
the county, and provides easy access to the White House, 
downtown Washington, DC, the Capital Beltway, the Department of 
Homeland Security's new campus at St. Elizabeths, and our 
region's airports, while also having the lowest real estate 
prices in--around nearby Metro facilities throughout our 
region.
    In addition, over 67,000 Federal employees reside in Prince 
George's County and, as you have heard, 43 percent of the 
workforce at the FBI. Prince George's County is the right fit 
for the FBI, and it will do right by the FBI.
    And if a consolidated headquarters becomes a reality 
anywhere within the parameters already set by the Senate 
resolution, the District of Columbia also stands to gain. The 
Hoover Building on Pennsylvania Avenue would free up a block on 
the most important and prominent street in America, allowing 
the District of Columbia to have a tax-generating tenant and a 
building that adds to the aesthetic value of Pennsylvania 
Avenue. And that would complement the soon-to-be developed Old 
Post Office site, which Chairman Norton worked very much on in 
the last Congress, and was championed by this committee, as 
well.
    Again, Chairman Barletta and Ranking Member Norton, thanks 
for allowing me to testify today. It is not our job here to 
figure out who gets the competition, but it is our job to make 
certain that it is a fair, it is an open and competitive 
process, and I have every confidence that Prince George's 
County will meet that competition.
    Thank you.
    Mr. Barletta. Thank you for your testimony, Representative 
Edwards.
    And now, Representative Connolly, you may proceed.
    Mr. Connolly. Thank you, Mr. Chairman, Ranking Member 
Norton, Mr. Shuster. And I know Nick Rahall just stepped out. I 
have a prepared statement; I am not going to read it to you. It 
repeats an awful lot of what has already been said. So let me 
just summarize.
    I want to echo what my colleague, Donna Edwards, just said. 
We look forward to a fair, open, and transparent process, free 
of political influence. And we believe that if there is such a 
process, frankly, Virginia is the likely new site of an FBI 
headquarters for several reasons, one of which is the FBI is 
already there. The FBI is in Quantico with a very large 
footprint. The FBI new recordskeeping complex is going to be in 
Winchester, Virginia. We already have the northern Virginia 
residency, of course, in Prince William County in Virginia.
    Virginia offers--northern Virginia offers one of the most 
skilled workforces in the United States, one of the highest 
performing school systems in the United States. It is a place 
from which we can draw skilled labor. And we have George Mason 
University, now the largest public university in a stellar 
public university State, the State of Virginia. We have the 
third largest community college, Northern Virginia Community 
College, in the United States, in Virginia, all of which 
provide criminal justice courses and forensics training in 
large numbers for law enforcement.
    The nexus for the FBI is logically in Virginia. And I 
believe that with a fair and open and transparent process, 
Virginia is going to be more than competitive in sites that are 
served by transit, particularly the GSA site in Springfield, 
but also the CIT site proximate to Dulles Airport that will be 
served by the silver line that is under construction right now.
    So, we are very proud of the sites that have been 
proffered. We look forward to a fair, open, transparent 
process. We hope that this committee, in drawing its criteria, 
will, frankly, be more flexible and more open than maybe the 
Senate was in drawing its. And as I said, we are confident 
that, if that is the process, we are going to be more than 
competitive.
    Thank you, Mr. Chairman, and thank you so much for giving 
us this opportunity this morning.
    Mr. Barletta. Thank you. I would like to thank each of you 
for your testimony here this morning. I know how busy you all 
are. But we all know how important this project is. It is 
critical to the FBI that their new location will be somewhere 
where it will be functional. And obviously, security is a major 
role.
    But the questions we have today that we want answered is 
why, where, and how. And your testimony today informing our 
subcommittee is very important to all of us. So again, I want 
to thank each of you for your time.
    We will excuse the panel, and----
    Mr. Rahall. Mr. Chairman? Since I didn't make an opening 
comment, may I make a comment to the panel----
    Mr. Barletta. Yes, you may.
    Mr. Rahall [continuing]. Before they depart? Let me just 
cite a couple well-known facts, if I might, to the panel.
    First, the FBI in my home State of West Virginia, which Mr. 
Wolf has referred, already have a successful partnership. As we 
know, in fact, the largest division of the FBI, the criminal 
information service division, is located in Clarksburg. The 
heart of the CGIS complex is a 500,000-square-foot main office 
building on 980 acres of land owned by the FBI. It features a 
beautiful 600-seat cafeteria, 500-seat auditorium. It has an 
atrium for visitors and employees, and a 100,000-square-foot 
computer center.
    The campus already employs some 2,500 employees. In fact, 
FBI owns nearly 1,000 acres of land in Clarksburg, plenty of 
room for expansion.
    [Laughter.]
    Mr. Rahall. In addition, the Internet crime complaint 
center, collaboration between the FBI and the National White 
Collar Crime Center, has a facility in Fairmont, West Virginia. 
It has been reported, following the division's move from 
downtown Washington, DC, to Clarksburg, West Virginia, that FBI 
executives cited sharper lower employee absentee rates, 
improved employee retention rates, higher worker productivity 
and morale.
    The benefits of West Virginia as a home for Federal 
facilities are abundant. And other agencies would do well to 
consider the community where the FBI and other Federal 
employees have thrived over the past 20 years.
    So I would say while these titans of the beltway lock 
horns, let us all remember that there is a calm, safe, and 
serene atmosphere in ``Almost Heaven,'' where our dedicated and 
hard-working FBI employees can work and live. Thank you, Mr. 
Chairman.
    Mr. Shuster. Will the gentleman yield?
    Mr. Rahall. Yes, I yield.
    Ms. Norton. Mr. Chairman?
    Mr. Shuster. I just would like to remind everybody that the 
Pennsylvania State line is less than 100 miles from here, and 
there is wide open spaces all over south central Pennsylvania. 
Yield back.
    Mr. Hoyer. Mr. Chairman, if I could just say that I have 
had a discussion with the new chairman of the Appropriations 
Committee, and she has told me how much she admired the work of 
the former chairman of the Appropriations Committee.
    [Laughter.]
    Mr. Moran. Mr. Chairman, would it be inappropriate to ask 
the ranking member of the full committee for his estimated ETA 
for the Metro system to arrive in West Virginia?
    [Laughter.]
    Mr. Moran. And how we are going to pay for it?
    Mr. Rahall. With high-speed rail, anything is possible.
    [Laughter.]
    Mr. Connolly. Mr. Chairman, I just want to say that if it 
can't be in the preferred location, Virginia, we would be proud 
to have it in our sister State, West Virginia.
    Mr. Barletta. I will call on our second panel of witnesses: 
Dr. Dorothy Robyn, commissioner, Public Buildings Service of 
the General Services Administration and Dr. Kevin Perkins, 
associate deputy director of the Federal Bureau of 
Investigation.
    I would like to welcome our witnesses, so I ask unanimous 
consent that our witnesses' full statements be included in the 
record.
    [No response.]
    Mr. Barletta. Without objection, so ordered. Since your 
written testimony has been made a part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.
    Dr. Robyn, you may proceed.

  TESTIMONY OF DOROTHY ROBYN, COMMISSIONER, PUBLIC BUILDINGS 
  SERVICE, U.S. GENERAL SERVICES ADMINISTRATION; AND KEVIN L. 
     PERKINS, ASSOCIATE DEPUTY DIRECTOR, FEDERAL BUREAU OF 
                         INVESTIGATION

    Ms. Robyn. Thank you, Chairman Barletta, Ranking Member 
Norton, Congressman Rahall. I appreciate the opportunity to be 
here before you this morning. That was a hard act to follow.
    Under new leadership, GSA has refocused on its mission of 
delivering the best value in real estate acquisition and 
technology services to Government and the American people.
    With respect to the real estate mission, GSA faces three 
key challenges: an aging inventory of buildings; limited 
availability of Federal dollars with which to maintain our 
existing buildings and construct new ones; and, as a result of 
the first two challenges, a growing reliance on leased space. 
To address these challenges, we are working to improve 
agencies' utilization of space, and thereby reduce their 
requirement for space, particularly costly leased space. We are 
seeking to reduce the cost of operating our buildings. Finally, 
we are using the authorities Congress gave us to leverage 
private capital to deliver better and more efficient space to 
Federal agencies.
    The subject of today's hearing is an illustration of these 
very challenges and our efforts at GSA to address them. Let me 
briefly summarize the challenge and our proposed response to 
it.
    As you heard from the last panel, and I would concur, the 
J. Edgar Hoover Building is no longer suitable as a 
headquarters facility for the FBI. Opened in 1974, when the FBI 
was primarily a law enforcement agency, the building was 
principally designed to store vast amounts of paper documents. 
It was also intended to be accessible to the public, as 
evidenced by the large central courtyard and the second-floor 
veranda for parade-watching along Pennsylvania Avenue. These 
features, among others, now represent deficiencies.
    The building is highly inefficient, from the standpoint of 
space utilization. Of the 2.4 million gross square feet of 
area, only 1.3 million square feet are usable to FBI personnel. 
This inherently poor use of space, together with the growth of 
the agency since 9/11, means that the Hoover Building now 
accommodates only about half of the agency's headquarters 
staff. The rest are located, as you have heard, in some 20 
leased locations around the national capital region. This 
dispersion of staff inhibits the kind of collaboration and 
communication that the FBI has sought to encourage in the 
aftermath of 9/11.
    Second, the design of the building as, in effect, a large 
filing cabinet discourages collaboration and communication 
within the building. In particular, sturdy interior walls of 
cement block, which line corridors wide enough to accommodate 
the movement of large blocks of paper files, make it hard to 
reconfigure the space into the kind of open, collaborative 
workspace that the FBI needs and that they are creating in 
their field offices around the country.
    And then, finally, the building, with its high-profile 
location and limited perimeter setback cannot meet and will 
not--cannot meet and does not meet the FBI's requirements for 
Level V security under the Interagency Security Committee's 
standards.
    Mindful of these deficiencies, in early December GSA issued 
a Request for Information from private developers interested in 
building a new headquarters for the FBI somewhere in the 
national capital region. The RFI made clear that GSA wants to 
consider an exchange of the Hoover Building for a new facility 
of up to 2.1 million square feet that would consolidate 
personnel from Hoover and the multiple leased locations in the 
national capital region.
    What exactly do I mean by ``exchange''? Real property 
exchange is a tool that Congress has given GSA with which it 
can dispose of properties that no longer meet the Federal need 
and/or with which we can leverage the equity of some of our 
Government's less suitable or efficient buildings to get other, 
more suitable and efficient ones. This could--in this case, 
this could involve the construction of a new facility on land 
that a developer owns, the construction of a new facility on 
land that the Government owns or acquires. Alternatively, it 
could involve an exchange for an existing building somewhere in 
the NCR.
    Under any of these scenarios, at the end of the process the 
developer would own the Hoover Building and the Federal 
Government would own its replacement facility.
    Now, I want to emphasize that our current initiative and 
the RFI are not limited to the exchange approach. But use of 
our exchange authority appears to be promising. The J. Edgar 
Hoover Building is functionally obsolete, and we believe the 
Pennsylvania Avenue site has considerable potential for higher 
and better use than as a headquarters of a Federal agency. We 
hope to unlock that hidden value and apply it to the creation 
of a new facility in the NCR.
    The deadline for responses to our RFI was March 4th. As you 
can imagine, the response was very enthusiastic. We got 35 
responses. We are now in the process of evaluating them. Based 
on the information we obtained, we may issue a Request for 
Proposals. That would be the next step.
    In sum, this is an important project, one that I believe 
can materially improve the FBI's ability to perform its 
mission. We are seeking to meet this challenge using innovative 
authorities that Congress has given us. We will work closely 
with Congress as we go forward, using a transparent process 
that emphasize competition and minimization of risk to 
taxpayers. And every jurisdiction in the NCR will get fair 
consideration.
    Thank you and I look forward to answering your questions.
    Mr. Barletta. Thank you for your testimony, Dr. Robyn.
    Now, Mr. Perkins, you may proceed.
    Mr. Perkins. Thank you, Mr. Chairman. Chairman Barletta, 
Ranking Member Norton, Ranking Member Rahall, members of the 
subcommittee, and all the distinguished guests here today, I 
want to thank you for the opportunity to discuss the FBI's need 
for a new consolidated FBI headquarters building. I am pleased 
to appear before you today, and I am truly honored to be here 
with my colleague from the General Services Administration, 
Commissioner Robyn.
    As you know, the FBI has occupied the J. Edgar Hoover 
Building on Pennsylvania Avenue since its completion in 1974. 
Since then, and particularly since 9/11, the FBI has undergone 
significant changes in its structure and its management: 
information technology systems, interagency collaboration, and 
its overall mission. These changes have transformed the Bureau 
into a national security organization that fuses traditional 
law enforcement and intelligence missions, enabling us to 
successfully identify and combat new and emerging threats, head 
on.
    As its mission has grown, the FBI has also adapted the use 
of the Hoover Building to meet mission requirements, and to 
increase operational efficiencies. For example, we relocated 
our crime lab to Quantico, instituted an electronic system of 
record, relocated our paper records, and converted nonpersonnel 
and equipment-intensive spaces into office space to accommodate 
our growing number of employees. As a result, today's FBI has 
over 10,000 headquarters staff in multiple locations throughout 
the national capital region.
    In fact, the Hoover Building houses only just over half the 
Bureau's headquarters staff. The dispersal of employees has 
created significant challenges with regard to effectively 
managing the Bureau's headquarters divisions and offices, 
facilitating organizational change, and sharing information 
across operational and administrative functions.
    Now, to address these concerns, numerous assessments of the 
current Hoover Building and other headquarters offsite 
locations have been conducted over the last few years. All have 
concluded that consolidating the FBI headquarters operations 
will improve information sharing and collaboration, eliminate 
redundant space, and enhance security, while at the same time 
saving significant tax dollars.
    Housing critical FBI headquarters elements in a single 
location will reduce space needs by over 800,000 square feet, a 
reduction of almost 30 percent, which, in turn, results in 
significantly lower rent payments, especially when you compound 
them over time. Our August 2011 headquarters consolidation 
project report concludes this will result in a savings of at 
least $44 million annually.
    Working with our partners at GSA, we have proposed locating 
a new headquarters within the national capital region. 
Generally, the site must be served by mass transit, have 
adequate surrounding highway infrastructure, and must be in 
substantial conformance with local land use plans. Just as 
importantly, the FBI headquarters building should be housed in 
a facility meeting the highest standards of security, a level 
of protection reserved for agencies with the highest level of 
risk related to their mission functions, which are critical to 
national security and continuation of Government.
    We will continue to work with the GSA and with Congress in 
order to identify and implement a solution that meets the FBI's 
needs not only now, but well into the future.
    I want to thank you again for the opportunity to be here 
before you today. It truly is an honor. And I now look forward 
to answering any questions you may have. Thank you.
    Mr. Barletta. Thank you for your testimony, Mr. Perkins. I 
will now begin the first round of questions, which will be 
limited to 5 minutes for each Member. If there are any 
additional questions following the first round, we will have 
additional rounds of questions, as needed.
    As I said in my opening statement, this is an important, 
yet complicated proposal. The committee wants to be helpful and 
find a new home for the FBI, but I do not envision the 
committee writing a blank check. As a result, we are looking 
for reasonable limitations on the size, scope, and cost of the 
project in order to protect the taxpayer from overbuilding and 
overspending.
    We have many questions along these lines and limited time. 
So it would be most helpful if you could attempt to keep your 
responses as brief and to the point as possible.
    We have some detailed questions regarding the FBI's 2011 
report. If it would be helpful, Mr. Perkins, I would invite Mr. 
Pat Findlay to join you at the table at your discretion, if you 
feel that that would be helpful. Without objection, so ordered.
    Mr. Findlay, would you state your name and your title?
    Mr. Findlay. Yes. Patrick Findlay, assistant director for 
facilities, FBI.
    Mr. Barletta. Thank you. Dr. Robyn, GSA recommended Federal 
construction in this 2011 project survey report. My question 
would be if this is GSA's current recommendation. If not, what 
is GSA's current recommendation? As you know, this report 
recommends Federal construction. In today's budget climate and 
fiscal climate, we know that is not possible. So if this report 
is not the true recommendation, what is GSA recommending?
    Ms. Robyn. Federal construction, Mr. Chairman, as you know, 
is always the least expensive approach, the best approach, in 
terms of cost to the taxpayer. So we always prefer that. We are 
pursuing that at St. Elizabeths, but you can see from the 
delays at St. Elizabeths the problems associated with 
consolidating an agency headquarters relying solely on Federal 
construction.
    So, we are looking at our exchange authority. We are not 
looking exclusively at that, but we want to explore that as an 
alternative, and a way to do this in a more accelerated way.
    Mr. Barletta. When will the committee receive an OMB-
approved prospectus requesting the project?
    Ms. Robyn. Well, I would say that OMB approved the RFI to 
go out. So I think that should give you some comfort that the 
approach that we are pursuing is one OMB is comfortable with.
    I think it is premature to talk about sending up a 
prospectus. I think we are--we just got the replies from the 
RFI in last week. We are evaluating them. Because there are so 
many, it is going to take us a while. We will be happy to brief 
you along the way on them, but I think it is premature to talk 
about a prospectus.
    Mr. Barletta. Mr. Perkins, would you please describe the 
FBI's recommended strategy in its 2011 report? And can you tell 
me, is the FBI formally requesting the committee to authorize 
that strategy?
    Mr. Perkins. Well, not formally requesting that 
authorization at this point. The strategy that is put forth in 
the 2011 report is that of a public-private partnership that, 
as you correctly noted earlier, in this fiscal environment in 
which we are in, we believe that would serve as the method by 
which would require the least upfront cost for the taxpayers, 
have the least impact on Federal spending, and be able to 
leverage the private sector's ability to come up with financing 
and development of a project with the least cost to the 
taxpayer.
    So, overall, we believe, in the end, we would have a 
facility that would meet our needs and our requirements, both 
security and operational, as well as having the least cost to 
the taxpayer on the front end.
    Mr. Barletta. And could you please present the financial 
case for the FBI's proposal? And what does the FBI spend now to 
home the headquarters? And what would it spend under a new 
proposal?
    Mr. Perkins. Certainly. Right now we spend approximately 
$168 million annually in rents across 21 different facilities 
within the national capital region. Under this new process, and 
a single campus, I believe that number would go somewhere 
approximately $124 million to $125 million in annual rent. The 
annualized net present value over the term of any type of 
public-private partnership and lease agreement would save us at 
a minimum of $44 million a year over what we are paying in 
rent, currently.
    Mr. Barletta. And for each of you--Mr. Perkins, you first--
is the ultimate Government ownership of a new headquarters 
necessary? And is that in the best interest of the taxpayers?
    Mr. Perkins. Yes. Ultimately, in the proposal that we 
looked at and really went forward with in our review, the 
public-private partnership would involve the facility being 
build on Federal land. After a term of approximately a 30-year 
lease, would come back in ownership to the Federal Government, 
yes. Ultimately, the facility would become a Federal facility.
    Mr. Barletta. Dr. Robyn, same question.
    Ms. Robyn. I think everyone agrees that this should be a 
Federal facility, a federally owned facility, sooner or later. 
We typically resort to leased space only for very general 
purpose space that we can get on the regular commercial market. 
If the facility needs to be specialized to an agency's needs, 
it is better to have it be federally owned space. The FBI's 
proposal would eventually have it be federally owned, but not 
initially.
    Mr. Barletta. Dr. Robyn, as I see it, OMB scoring is our 
biggest obstacle to the FBI's proposal.
    Ms. Robyn. You said that, sir, not----
    Mr. Barletta. We all know we don't have $2 billion in 
appropriations, and GSA has never been able to get OMB to 
approve the type of lease arrangements proposed by the FBI.
    My question is this. Please explain the scoring issues with 
this proposal. And, two, what is OMB's position? Is OMB 
prepared to allow this project to advance as an operating 
lease?
    Ms. Robyn. Well, I don't want to speak for OMB, but let me 
tell you what I think the scoring issue is. And I want to say 
that we certainly have not ruled out the out-lease lease-back 
approach that the FBI report recommended. That is an innovative 
authority that this committee gave us. We still hold out hope 
that we can identify a way to do that. So we have not ruled 
that out.
    I think, in terms of scoring, the philosophical foundation 
for scoring is risk. It is the concept of risk. Does--is the 
Federal Government bearing the risk, or does the private sector 
have skin in the game? That is really what it comes down to. So 
when something scores--and typically OMB and CBO are--look at 
the world in very similar ways--it is typically because they 
feel like the private sector isn't bearing as much risk as 
Government, or the scoring is--depends on the amount of risk.
    So, I think the issue for an out-lease lease-back approach 
would be can we do that in a way that the private sector has 
enough skin in the game, that is what it would come down to. We 
think we are on better footing with an exchange. We think 
that--I think it is--the reason I emphasize that OMB had 
approved the RFI is because the RFI that we put out, it did not 
limit it to exchange, but it did make clear that we were 
interested in the possibility of an exchange of the Hoover 
Building for a new headquarters. And that RFI passed muster 
with OMB.
    So I think we feel that we are on better footing in terms 
of potential scoring with an exchange. But we have certainly 
not ruled out other approaches.
    Mr. Barletta. Thank you. I will recognize Ranking Member 
Norton for questions.
    Ms. Norton. Thank you very much, Mr. Chairman, and I want 
to thank both of you for very helpful testimony. Dr. Robyn, the 
RFI is different from the Senate resolution. And I note that 
the staff memo, which is a memo from the staff of both sides 
here, is not a Democratic or Republican staff memo, has a 
section or question, or actually is a statement. It says that 
the Senate EPW resolution requires, to the extent practicable, 
the new location to be 2 miles from a Metrorail station and 2.5 
miles from the Capital Beltway. If GSA were to follow this 
instruction, it could significantly limit competition of sites 
in all three potential jurisdictions: Virginia, DC, and 
Maryland.
    Is the delineated area in your RFI necessary for 
competition, for full and fair and open competition? And is it 
likely to be the delineated area in any forthcoming RFP or 
Request for Proposals?
    Ms. Robyn. We made clear in the RFI that the area we are 
interested in is the national capital region. We did not limit 
it any more than that. And we did not refer to----
    Ms. Norton. And you recognize that the Senate resolution 
does limit----
    Ms. Robyn. Yes. Yes, I do. We tried to make the RFI as 
broad as possible. We want to encourage as much creativity and 
interest at this stage as we can. And the RFI does not talk 
about being 2.5 miles from a Metro or the beltway. That is not 
in the RFI. I think we used those criteria for purposes at--one 
point for purposes of trying to estimate the value of land in 
various parts of the national capital region. But that--we 
didn't--we explicitly did not put that into the RFI.
    Ms. Norton. So that standard isn't even in your--and you 
don't anticipate it being in the RFP?
    Ms. Robyn. I don't know. I think we are very mindful of the 
proximity to transit. I think the FBI, as I think we are, I----
    Ms. Norton. I don't think you have any choice about 
transit.
    Ms. Robyn. Yes.
    Ms. Norton. That is the policy of the United States, when 
it comes to construction. But this 2.5--the linking of the 2.5 
miles from the beltway, to deliberately exclude most of the 
District of Columbia was an affront, frankly. And it didn't 
sound like the GSA usually does business. We, of course, wrote 
to the Senate and we didn't think that that could pass muster. 
But it is important for that to get on the record here.
    You talk about the national capital region.
    Ms. Robyn. Yes.
    Ms. Norton. And, of course, about distance from Metro 
stations. And that, of course, is fair, free, and open, and 
nobody gets excluded.
    Could I ask Mr. Perkins? Are you seeking to leave the 
District of Columbia? Do you object to being in the District of 
Columbia? Do you see any advantages to being in the District of 
Columbia?
    Mr. Perkins. Ranking Member Norton, I will start by saying 
that----
    Ms. Norton. Is your microphone on?
    Mr. Perkins. Oh, yes, ma'am. It is set. I am sorry. I will 
start by saying that we have absolutely no objection to being 
within the District of Columbia, whatsoever. Our central 
mission here is to come up with a property, whether it is in 
either Maryland, Virginia, or in the District, that meets two 
major criteria: one, our operational mission needs; and two, 
providing adequate security for the facility and the workers 
who are coming and going from there. So there is absolutely no 
objection to the District. There is no objection to any of the 
proposals that are out there at this point.
    Obviously, as we have already discussed, adjacent--near 
highways, transportation, public access, and the like, very, 
very important, as we have already mentioned in the record. But 
no, we have no objection whatsoever to that.
    Ms. Norton. Thank you. Could I ask both of you? The RFI has 
an enormous acreage, 40 to 55 acres, for a new consolidated 
FBI. Bear in mind that you are talking to the committee that 
developed these new standards that puts everybody into smaller 
amounts of space. You have 40 to 45 acres. We understand that 
has a lot to do with security.
    Could this requirement be mitigated if other factors were 
taken into consideration so that it wouldn't take up so much 
land, and have you consider mitigation of that large amount of 
land, 40 to 55 acres? Dr. Robyn?
    Ms. Robyn. Yes. We have--there is a trade-off between the 
amount of land for a setback and alternative approaches to 
getting that same level of security through the building, 
physical ways the building is constructed. So there is a trade-
off there. Again, we are trying not to prejudice the process at 
this point. We are saying we are open to a variety of 
approaches. But we recognize that is a serious issue.
    I have continually thrown out the idea of whether this 
should possibly go on a military base for exactly that reason, 
because you would not need to have the same setback. I don't 
know that there are many other people who support my thoughts 
there.
    Ms. Norton. Horrible idea. Is it a horrible idea.
    Ms. Robyn. I hear that. I heard that from Congresswoman 
Edwards, as well, earlier. But it is another----
    Ms. Norton. We will strike that from the record.
    [Laughter.]
    Ms. Norton. We have had--and I know my time is over--we 
have had some dealings, Dr. Robyn, with you and with force 
protection standards that harmed this entire region, which we 
think are gone forever.
    Ms. Robyn. They are, yes. I worked to change those.
    Ms. Norton. That required the kind of setbacks that would 
mean that you could locate almost nothing of the Federal 
Government in this region.
    Ms. Robyn. No. Well, that is--I think--so let me just 
clarify, because--so, first of all, those, the standards, were 
changed.
    Ms. Norton. Yes.
    Ms. Robyn. And I think I had something to do with that, and 
thank you----
    Ms. Norton. And I thank you for that.
    Ms. Robyn [continuing]. For your support on that. But 
secondly, my thought of--and it is just an idea that I have 
thrown out, and it has not gotten a lot of support, but is that 
if one were to put this new headquarters at, say, Andrews Air 
Force Base or Anacostia-Bolling, you would not need the large 
setbacks, because it would already be within a secure 
perimeter. So it would be precisely to get away from the large 
setback that one would want to consider that.
    Mr. Barletta. Thank you, Ranking Member Norton. We will 
have a second round, if there are more questions. But now I 
would like to recognize former full committee chair, Mr. Mica.
    Mr. Mica. Well, thank you. And thank you, Mr. Chairman, I 
appreciate your leadership in chairing this important 
subcommittee, and continuing to deal with Ms. Norton. Both of 
those deserve high praise.
    Ms. Norton, did you hear that?
    [Laughter.]
    Mr. Mica. Well, she will--staff will inform her later and 
she will get even with me. But pleased to participate today.
    I have been involved, of course, with GSA prior to becoming 
chair of the full committee. We produced a report entitled, 
``Sitting on Our Assets: The Federal Government's Misuse of 
Taxpayer-Owned Assets,'' and we tried to pick up, when we 
gained the Majority, looking at--and the beginning of that 
report, if you read it--I think it is still online--focusing on 
GSA and their dealing with public buildings.
    And the largest trustee of public assets I think we have is 
GSA and, of course, the Federal Government, has some broader 
jurisdiction across the hall in Government reform, and we will 
continue that, which we have done most recently--we had a 
narrow scope in this committee--much broader. And I am 
absolutely appalled at what I am finding as we continue our 
work, looking at these.
    First of all, Ms. Robyn, how many square feet is the new 
building going to require?
    Ms. Robyn. The RFI says up to 2.1 million.
    Mr. Mica. Square feet. All in one location. OK. Secondly, 
you--to do that you have to make a decision on how you are 
going to do it. That would cost quite a bit of money. What is 
the estimate that it would cost to build 2 million square feet?
    Ms. Robyn. We have not made an estimate of that.
    Mr. Mica. Well, come on. You are----
    Ms. Robyn. I will defer to----
    Mr. Mica [continuing]. GSA. Tell me what it would cost to 
build a Federal building.
    Ms. Robyn. It is----
    Mr. Mica. Were you doing $1,000, $500 a square foot?
    Ms. Robyn. It is a substantial amount of money. But, sir, I 
don't----
    Mr. Mica. But I want to know the range, OK? And you are not 
going to get it from this Congress or the next Congress, I 
don't believe. Is that--has that money been appropriated?
    Ms. Robyn. No.
    Mr. Mica. OK. So you are not going to have the money. So 
you look at your alternatives. The agency has recommended that 
possibly a lease and then a eventual possession by the Federal 
Government. That is one of your options, right, since you don't 
have the money?
    Ms. Robyn. Yes.
    Mr. Mica. Have you made a decision on how you are going to 
approach this to get them out of there?
    Ms. Robyn. No, sir. We have----
    Mr. Mica. You have an evaluation that we see in the report. 
They are right now sited downtown and you have other spaces. Is 
that correct?
    Ms. Robyn. They----
    Mr. Mica. Sir? Mr. Perkins?
    Mr. Perkins. Yes, sir, that is correct.
    Mr. Mica. How many total square feet do you occupy now?
    Mr. Perkins. Just over 3 million square feet.
    Mr. Mica. And you are going to consolidate that? You can 
get by with 2.2 million?
    Mr. Perkins. Yes, sir, the----
    Mr. Mica. So there would be some savings?
    Mr. Perkins. There would be considerable savings.
    Mr. Mica. And that would have some value to the Government.
    Mr. Perkins. Yes, sir.
    Mr. Mica. Do you know how much that would be?
    Ms. Robyn. Well, the FBI's number is $44 million.
    Mr. Mica. OK.
    Ms. Robyn. That is an----
    Mr. Mica. And that has some value to the Federal 
Government.
    Ms. Robyn. Yes.
    Mr. Mica. If you multiply it out over the number of years.
    Ms. Robyn. Yes.
    Mr. Mica. So, when you--you are not going to get the money 
from the Federal Government. So somebody has got to make a damn 
decision of moving forward. When do you expect that will be?
    Ms. Robyn. We--in my opening statement I made clear that we 
are looking principally at the potential to exchange the value 
of the J. Edgar Hoover for a new facility----
    Mr. Mica. OK.
    Ms. Robyn [continuing]. An exchange.
    Mr. Mica. And you are negotiating that. OK.
    Ms. Robyn. We are not negotiating yet----
    Mr. Mica. How long will you let that go on?
    Ms. Robyn [continuing]. We are--we put out an RFI.
    Mr. Mica. OK.
    Ms. Robyn. The responses were due----
    Mr. Mica. When is----
    Ms. Robyn [continuing]. March 4th. We got 35 responses.
    Mr. Mica. And how long----
    Ms. Robyn. We are working----
    Mr. Mica [continuing]. Will it take you to evaluate them?
    Ms. Robyn. It will take----
    Mr. Mica. Give me a date. Come on. This is business.
    Ms. Robyn. It will take a couple of months to go through 35 
responses----
    Mr. Mica. OK. So 60 days you will have an answer. That is 
the problem with Government versus business in the private 
sector. Nobody can make a decision or meet a timeline.
    Now, I just got through being down at the--Miami to look at 
the Federal courthouse. Sitting empty, a Federal building, for 
more than 5 years. They knew 2 years before that that that 
building was going to be empty. And nobody has made a damn 
decision yet on what to do with it, costing $1.2 million a 
year. A total of just 5 years is $6 million to keep an empty 
building maintained.
    Now, do you have a plan? Are you going to--are they going 
to vacate the building downtown, sir? That is the plan?
    Mr. Perkins. That is one of the options----
    Mr. Mica. That is your major, principal location.
    Mr. Perkins. Yes, sir.
    Mr. Mica. Do you have a plan to do something with that 
building?
    Mr. Perkins. With J. Edgar Hoover? We would----
    Mr. Mica. Are you starting that process now?
    Ms. Robyn. The----
    Mr. Mica. I will bet there isn't plan one.
    Ms. Robyn. Sir----
    Mr. Mica. I will bet there isn't a clue as to what to do 
with it.
    Ms. Robyn. Could----
    Mr. Mica. Now, if I really want to go after you, the FTC 
building, again, we have down the street. The consolidation of 
that, we propose, would save a half-a-billion dollars. But God 
forbid we should do that or consolidate it all in one location.
    Ms. Robyn. The nature of an exchange is that we would, in 
effect, auction off the Hoover Building----
    Mr. Mica. Yes.
    Ms. Robyn [continuing]. To a developer. And in exchange for 
that value, they would build a new facility.
    Mr. Mica. Well, thank you.
    Ms. Robyn. That would be up to the developer----
    Mr. Mica. I don't mean to give you a hard time. And thank 
you for also building in the power station. This week you 
announced that it went online auction. And we held a hearing in 
the vacant 2.08-acre power station. Just for the record, that 
will bring in $19.5 million.
    Ms. Robyn. Yes.
    Mr. Mica. We also have the Old Post Office building, and I 
hope that deal is moving forward.
    Ms. Robyn. Yes.
    Mr. Mica. But we have--I think we had 14,000 properties. I 
only have 13,994 more to go.
    Thank you and yield back the rest of my time. If you have a 
second round, I will be here and I will also submit questions 
for the record. Thank you.
    Mr. Barletta. Thank you, Chairman Mica. Now I would like to 
recognize Ms. Edwards for 5 minutes.
    Ms. Edwards. Thank you, Mr. Chairman. And thank you also to 
the witnesses this morning. I appreciate the insight that I 
have already gotten from our discussion thus far.
    I want to clarify something, because I am looking at the 
Senate Environment and Public Works Committee-approved 
resolution, and just want to be clear about what your 
understanding of that resolution is, and whether you believe 
that it excludes sites within the District of Columbia from 
also competing in this eventual competition.
    Ms. Robyn. I would have to ask our general counsel to 
interpret it. I would just say here that we intentionally cast 
the RFI more broadly so as to encourage the maximum amount of 
ideas and interest at this stage. So we didn't--we did not 
limit the RFI based on the Senate resolution. I don't know 
whether, as a legal matter, whether the Senate resolution 
would----
    Ms. Edwards. It would be helpful, perhaps not here, but to 
have your counsel's interpretation of that for our 
consideration.
    Ms. Robyn. OK.
    Ms. Edwards. I want to ask you about the--in the GSA study 
report, on page 4 specifically, I just want to read to you what 
your report says, that ``the location of the facility is 
assumed to be within 2.0 miles of the Metro station and 2.5 
miles of''--and I emphasize ``of'' because it is a different 
preposition--``the Capital Beltway with site costs similar to 
those found in the more developed, close-in suburban areas as a 
means to estimate the maximum cost the Government would 
incur.''
    And so, I want to make sure that we are also following--as 
we move forward, Mr. Chairman or Ranking Member--that we are 
also following the recommendations that were laid out in the 
GSA report, and that we come as close to that as possible in 
our own work.
    Ms. Robyn. Could I just clarify?
    Ms. Edwards. Yes.
    Ms. Robyn. The--those figures were used for purposes of 
doing a valuation, valuation of property at various locations 
in the national capital region. They were not inserted as a 
siting criterion. So that is an important distinction. They 
were for purposes of valuing land.
    Ms. Edwards. Thanks for the----
    Ms. Robyn. Land and property, yes.
    Ms. Edwards. Thank you for the clarification. Excuse me.
    I also want to know how the Hoover Building fits into a 
potential financial structure for the new headquarters 
building. Mr. Perkins, if you could, clarify that for us.
    Mr. Perkins. Certainly. I may draw upon my GSA colleague in 
assistance with that, but the Hoover Building, the way it is 
being proposed in the FBI's report, would serve as part of the 
public-private partnership to where we would exchange that 
facility and that property with a developer who has a plan to 
be able to build a facility for us in an acceptable area. At 
that time, then, at the end of the construction, if I am 
correct, the Hoover Building--that property would become the 
property of the developer, to develop as he or she sees fit, 
going forward. And then we would then eventually acquire 
possession of the new facility, as it is completed, and over 
the lease term.
    And correct any of the technical aspects of that.
    Ms. Edwards. That was a yes, Ms. Robyn, right? Let me ask 
you as well, Dr. Robyn, if the GSA has gotten any independent 
expert advice regarding the actual valuation of the J. Edgar 
Hoover Building. And, if so, from whom? And what did you learn?
    Ms. Robyn. It has been appraised at several points along 
the way. I don't feel comfortable throwing those numbers out. 
They are not--I don't think they have ever been widely 
circulated. There was a Jones Lang LaSalle report in 2005, 
2006, that included an appraisal done by a subcontractor to 
them. I believe we did another one later, within the last year 
or two. And typically, they appraise the value as-is, and then 
the value of the unimproved land, as well as a number of other 
variations on those.
    I just don't--those numbers are out there. I would be happy 
to brief you on them privately. I don't feel comfortable 
sharing them more broadly.
    Ms. Edwards. At what point will, as part of this process, 
will we have some sense of the real valuation of the property 
for the purposes of figuring out whether the savings to the 
taxpayer is $44 million in, you know, in opportunities around, 
or perhaps the savings might even be more, depending on the 
valuation of that property in exchange.
    Ms. Robyn. Well, I think that we--I mean, ultimately, one 
doesn't know the value of a piece of property until you sell 
it. The market tells you what the property is worth. We think 
we can--we would certainly do everything we could to raise that 
value before we sold it, by working with the District of 
Columbia on the historic status of the building, on, you know, 
possible other changes that would allow for maximum use of that 
very desirable property.
    I think we can get a sense of what it is worth from an 
appraisal. But ultimately, one doesn't know until you actually 
sell the property.
    Ms. Edwards. Thank you.
    Mr. Barletta. Mr. Perkins, the FBI report and the Urban 
Land Institute report each have detailed cost figures for the 
proposed FBI headquarters. Can you briefly summarize what it 
will cost to build a new headquarters? And can this committee 
rely on those numbers for the purpose of authorizing a new 
headquarters?
    Mr. Perkins. Yes, sir. I can give some approximate numbers 
on that. The Urban Land Institute was actually brought in 
following our conducting our own internal study to really check 
our math and put a second set of eyes on the document. The 
findings they came up with were fairly on par with what ours 
did.
    As far as the actual cost of what we would take, in looking 
at that type of a facility, looking at approximately $1.2 
billion coming up with the square footage we needed to put that 
together. And that is over the term. That is the construction 
plus--well, that gives us the 2.2 million square feet, 
including the land costs involved in that.
    Mr. Barletta. Can the FBI's proposal be financed through a 
lease utilizing--without utilizing the value of the 
Pennsylvania Avenue property?
    Mr. Perkins. I will take a stab at that, and will also 
defer to my colleague from GSA. I would say that is going to be 
a very difficult road to go down, if not--especially in the 
current fiscal climate in which we are operating.
    Mr. Barletta. Dr. Robyn, how does GSA and FBI propose to 
pay a developer for any difference between the value of the 
Hoover Building and the cost to build a new FBI headquarters 
complex? It is questionable whether the Hoover property will 
provide sufficient funds to--as an option for a 2-million-
square-foot new facility. And how do you propose that they will 
pay for that?
    Ms. Robyn. That is a fair question. I am not ready to 
concede that the value of Hoover won't cover the value of a 
headquarters. I think we don't know what the value of Hoover 
is. But I think it--a lot of it comes down to land, whether the 
land--whether the Federal Government would be purchasing the 
land, or whether we would be getting the land for nothing. So, 
it is not obvious to me that one would cost more than the 
other.
    A major question that we put out in the RFI was--to 
developers was if there is a--if you think there is a 
disparity, how would you propose to cover it? There are a 
variety of ways. There may be other property, other GSA 
property that we would be willing to also exchange, or that we 
would propose to exchange to add to the value. One could do 
continued leasing some space for the FBI. One could do 
something in phases, like we are doing at St. Elizabeths, 
although we would like to avoid that.
    Mr. Barletta. Is there a list of properties that you may 
look at as an option?
    Ms. Robyn. In the national capital----
    Mr. Barletta. To add to the exchange.
    Ms. Robyn. No, no. I am putting that out as a conceptual 
alternative, but I don't have other--a short list of other 
properties.
    Mr. Barletta. Assuming GSA proceeds with the project and 
gets to the point of issuing a request for proposals, is GSA 
taking any steps to seek and use outside expertise to advise 
GSA in the process? And if you could, please explain.
    Ms. Robyn. Yes, we have. The FBI and GSA began talking 
about this 9 years ago. Director Mueller and the then-head of 
the GSA, Perry, met in 2004. We have both done a series of 
studies that have drawn on outside experts to do housing 
studies to look at the condition of the Hoover Building, to 
appraise the value, a variety of things.
    So, we have done two things: one, reach out to outside 
experts, and then draw on the best and brightest we have inside 
GSA to work on this project. And we will continue to do that.
    Mr. Barletta. OK, thank you. I will turn to Ranking Member 
Norton.
    Ms. Norton. Just a few more questions, Mr. Chairman. I want 
to get back to this 2.1 million square feet. That was in the 
initial report. One thing I believe this subcommittee will hold 
GSA to is its requirements for smaller amounts of space and 
square footage.
    Do you believe that perhaps, given the new requirements, 
that 2.1--that less than 2.5 million square feet may do for a 
new headquarters?
    Ms. Robyn. We were clear to say in the RFI ``up to,'' up to 
2.1 million. So we haven't locked in on that number. I think 
it----
    Ms. Norton. Well, how did you get to that number? Did that 
number include the space allocations that the administration 
now has mandated, as well as this committee?
    Ms. Robyn. Yes. That represents taking those people that 
the FBI believes need to be in the consolidated headquarters 
and allocating a--it is a pretty conservative space number for 
them.
    Ms. Norton. Well, I mean, is it--does it keep--first of 
all, I am not sure that that--that may have been issued before 
the mandate for----
    Ms. Robyn. Yes. Well, we--yes. We--I mean we have been 
working----
    Ms. Norton. So all I am asking is have you----
    Ms. Robyn. Can it go further? I----
    Ms. Norton. The mandate was--came down from the 
administration, it came down from this committee. For example, 
the Coast Guard headquarters----
    Ms. Robyn. Right.
    Ms. Norton [continuing]. Was done before that mandate. And 
what I am asking you is--was the 2.1 million square feet, up to 
2.1 square feet, did it take into account the mandate that says 
you must reduce the per-employee space in Federal buildings?
    Ms. Robyn. It represents a 30-percent reduction in space. 
So, yes, it did.
    Ms. Norton. That is my only question.
    Ms. Robyn. Yes. An apples-to-apples comparison, would--the 
FBI would be going from, I think, 3.1 to 2.1--3 to 2.1. So it 
is a 30-percent reduction. Even before the OMB mandate, we have 
been very aggressively pushing agencies to downsize their 
footprint. And that--and the FBI is very much on board, because 
it supports their effort to go to more collaborative, open 
workspace.
    Ms. Norton. Well, does the building take into account--
well, first of all, let me ask Mr. Perkins. Do you see further 
growth in the FBI? And does the--will the new site take into 
account for the growth, if you do see further growth in the 
FBI?
    Mr. Perkins. Yes, ma'am, it does. It accounts for the 
growth over the coming years. And the key point to remember 
here is in shrinking down from 21 facilities to a single 
facility, you are eliminating a significant number of 
overlapping space, great inefficiencies. When you are dropping 
800,000 square feet, it is easy to be able to put all of us 
into 1 facility at 2.1, versus the 21 that are out there, or 
the 20-plus headquarters.
    So--but to answer your question, yes indeed, it does look 
at the future growth of the FBI and the potential for that, 
going forward.
    Ms. Norton. Mr. Perkins, did you have any role in the RFI 
delineation?
    Mr. Perkins. I had no direct role in the development of the 
RFI.
    Ms. Norton. Were you consulted?
    Mr. Perkins. Yes, ma'am. Well, our assistant director for 
facilities, who is in my chain of command. Yes, ma'am. The FBI 
was consulted in that.
    Ms. Norton. Let me ask about the role--I can understand it 
was, of course--it is always advisable to consult the agency. 
But Dr. Robyn, you may know that this subcommittee has 
repeatedly criticized GSA for allowing agencies 
disproportionate authority over what happens in the agency, 
including where things could go. I mean we have agencies on K 
Street who could have gone to other parts of the region and the 
city.
    In order for me to get people to go to NOMA, which is a 
stone's throw from the Senate, I had to beat--if you will 
forgive me--GSA about the head and shoulders. There have been 
some, I am going to say, disparaging remarks made about going 
to one part of the region. So I have got to ask. What role will 
the FBI have when the ultimate authority under the statute is 
with the GSA?
    Ms. Robyn. On this issue, as on others, we have--we wear 
two hats. On the one, we try to be customer-friendly to our 
Federal agency customers. At the same time, we do--we play a 
sheriff role. And downsizing square footage and getting 
agencies out of leased space and into less expensive space is 
also part of our role. So we play that dual role here, as we do 
in other places.
    Ms. Norton. Dr. Robyn, all I am saying is--and you have to 
play a dual role. The role of sheriff has been much overcome in 
the past, so that agencies have cost the taxpayers billions of 
dollars, just by essentially having the final say on matters 
that were within the authority of this agency. And that is 
something we will be watching.
    If I could ask one more question, Mr. Chairman, and that is 
about the Old Post Office. What is the status of the Old Post 
Office, which has been a virtual project of this subcommittee?
    Ms. Robyn. Yes, and thank you very much for your support. 
You know, we announced a year ago that the Trump organization 
is the preferred developer. We said that we are going to need a 
year to negotiate it. These things take time when you are 
talking about--and we are at that point. We are still 
negotiating, but we are hopeful that we will--you know, we are 
not going to take a bad deal, but we are hopeful that we will 
have--that we will complete our negotiations relatively soon.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Barletta. Thank you. I would like to recognize Mr. 
Mica.
    Mr. Mica. That is astounding, that it has taken you a year 
to negotiate. What the hell would you doing, when you should 
have been having a deal that was close to just sewing up? It is 
unbelievable.
    Mr. Chairman, maybe you need to go do another hearing in 
that vacant building down there. This is appalling, the way we 
manage our Federal properties. It is just beyond the pale.
    OK. You said you got $44 million in savings, right?
    Mr. Perkins. Yes, sir.
    Mr. Mica. Perkins? OK. You multiply that about 27 years, 
that is worth about $1 billion--10 times 44 is 440, 27, 28 
years, that has got $1 billion value.
    Did you tell, or somebody testify that you had--it would 
cost you about 300--you need 60 to 70 acres. Is that right, 50 
to 70?
    Mr. Perkins. Between 45 and 50----
    Mr. Mica. Forty-five? OK. But your estimate in cost is 
about $300 million, right? Just a guess. In the capital region, 
you are going to--it is going to cost you that much? Give me a 
ballpark. Quarter of a million?
    Mr. Perkins. The value of the land. Yes, sir.
    Mr. Mica. Yes, OK. Sorry, Ms. Norton, you got screwed in 
this whole process, I saw, with the Senate resolution. Figured 
this one out. They kind of excluded you from--this is neat, the 
way they craft it. They just don't happen to have a Senator, so 
they screwed her.
    [Laughter.]
    Mr. Mica. But thank you, GSA, for helping her, because your 
RFI, whatever, your Request for Information, actually allowed 
the District to be considered, property in the District. Is 
that right?
    Ms. Robyn. All parts, yes.
    Mr. Mica. So we--this isn't a request even for proposal, 
folks. This is a request for information. But that is the game 
that is being played there, interestingly enough.
    Now, if someone was doing their job in GSA, you would look 
at the Federal properties that we have, so we could save $300 
million to start. We have $1 billion we could save there. If 
this thing is going to cost you $2 billion, that is a $700 
million deficit that we would have to make up for, get the 
private sector to--there may be more than that, but the Federal 
Government, in the meantime, would be paying an average of $44 
million.
    Just thinking this thing out, there are plenty of 
properties. I was stunned to find out that there is 7,000 acres 
in Beltsville at the Agricultural Research Service station at 
Beltsville, Maryland, 7,000 acres. This is one of the principal 
buildings out there. Can you see it from here? From there? I 
know I had a big blowup. I don't have it. This is the Food and 
Drug Administration building, windows knocked out. There are 
rows of office building. Seven thousand acres. You need 45 to 
70?
    Mr. Perkins. Yes, sir.
    Mr. Mica. Then I went across the other way to--and I am not 
picking sides in this fight. That is Maryland. Here is a site 
we could save $300 million, $250 million, or whatever.
    I went out to Springfield. At the Metro stop--I took the 
Metro back, folks, to save money on gas. Didn't charge the 
taxpayers for it. The Metro stop, how many acres, 70 acres out 
there? They use it for storage, storing files and storing doors 
and stuff. I went out and looked at it myself. A million square 
feet on about 70 prime acres we could use.
    So, I would think someone would put a deal together, or at 
least your RFI would say we have the opportunity to use some 
Federal buildings. Those are only two sites, one in Maryland, 
one Virginia--not picking sides. Ms. Norton has one in--what is 
it the staff told me? Yes, OK. Not that I am a fan of the 
District, and I have my little war going with her on things, 
but we have sites.
    Nine years? Did you say 9 years that they have been going 
back and forth, talking about this?
    Ms. Robyn. Yes.
    Mr. Mica. And then you gave me 60 days for the Request for 
Information? You think you would have a Request for Proposals 
after that?
    Ms. Robyn. Well, I don't think it will be 60 days, no. I 
think it is going to take----
    Mr. Mica. Do you need more direction from Congress? You 
want something from this side of the aisle? Is this enough to 
work with?
    Ms. Robyn [continuing]. Take longer. We always welcome----
    Mr. Mica. OK. But again, it is so frustrating. We could 
save money, we could house our chief law enforcement agency, 
the FBI, and provide some of this space, if somebody would 
start thinking, if we had people with a little bit of common 
sense.
    Again, I have to go back to you all looking at--the thing 
that stuns me, like when I went out to Beltsville, I know it is 
the Department of Agriculture. Nobody has a plan of what to do 
with this. There are 500 buildings on that property, 200 of 
them are vacant, vacant or smashed in, like this. And no one 
has a plan.
    Do you--and I saw the information you provide on real 
estate assessments from the agency that almost all the 
information is incorrect. In fact, some of them have vacant 
buildings and smashed out buildings like this that they report 
as in good shape. This is a broken system, when we are closing 
down and sequestering vital services of Government, and we have 
billions of dollars of waste, and nobody is doing anything 
about it.
    Ms. Robyn. And, sir, I have told you in an--first of all, 
as you know, that is not GSA property. And I have stressed to 
you, coming from 3 years in the Defense Department, that we 
need a civilian BRAC.
    Mr. Mica. Ah, Defense.
    Ms. Robyn. We need a civilian BRAC.
    Mr. Mica. Post Office, Defense. It is more than a BRAC, and 
I yield back----
    Ms. Robyn. We need a----
    Mr. Mica [continuing]. The balance of my time.
    Ms. Robyn. Can I--I want to just point out something, that 
the conversation about building the J. Edgar Hoover Building 
began in the early 1960s. The building was finished in 1974. 
The reason was lack of funding. Lack--so this is an old--you 
know, these things--this is the dilemma that we----
    Mr. Mica. So we are following that pattern again.
    Ms. Robyn. Well, it is an age-old problem. The Old 
Executive Office Building, the same thing. It took two 
decades----
    Mr. Mica. God forbid we should drag ourselves into the----
    Ms. Robyn. It is not----
    Mr. Mica [continuing]. 21st century of fiscal 
responsibility. Amen.
    Mr. Barletta. Thank you, Mr. Mica. And Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman. And I just want to 
say to Mr. Mica that I would be happy to work with him on 
making sure that the Beltsville agricultural property becomes 
the new campus of the FBI.
    [Laughter.]
    Ms. Edwards. Well--and I am sure that as the GSA and FBI 
move forward on going from where we are right now to a Request 
for Proposals, that you will make certain that this process is 
open and fair, and that sites like the Beltsville agricultural 
property can be part of this consideration.
    I want to ask you, actually, Mr. Perkins, if you have any 
concern--and this is actually somewhat related to Beltsville--
if you have any concerns in a new FBI headquarters would be 
adjacent to support of mixed use development to enhance the 
overall work environment for the workforce. Do you have any 
concerns about that, or--any security concerns or otherwise?
    Mr. Perkins. No, ma'am. I believe, as I have noted, I want 
to make sure that whatever facility we wind up in allows us to 
carry out our mission and keeps our workforce secure. Those are 
the two main issues. And if--depending on what the adjacent 
properties were, their types of usage would all be considered 
in any kind of a request. We would hope to be a part of that 
discussion.
    Obviously, to meet those security requirements it would 
require certain offsets and all, as you know. But no, in answer 
to your question, it would not be a major concern if the 
adequate offset in space was available.
    Ms. Edwards. Thank you. I wonder also if you could--when we 
go to those security concerns--if the FBI headquarters has to 
be built to satisfy Interagency Security Committee Level V 
security specifications, that with that in mind, what would be 
your view, in terms of the area that would ideally be 
encompassed for a new and consolidated headquarters? Do you 
have any thoughts about that?
    Mr. Perkins. Well, I think I have really--with the 
requirements we have put out, we are going to lean heavily on 
the GSA to come up with that location. I think there are 
locations in each of the areas that we have discussed today 
that would be adequate to meet our needs, just based on what we 
know at this point.
    There are pluses and minuses. There are--there has been 
reference to where FBI employees live and commute from. I don't 
have the exact numbers of where all of our people reside, but I 
do know we have an adequate and representative number in each 
of both Maryland, Virginia, and the District.
    I will note that the three top officials within the FBI, 
one lives in each of those areas. We have one of us in the 
District, one in Maryland, and one in Virginia. So there is, 
ironically, an equal representation there.
    But the security concerns are significant for us, 
especially as we are--where we are located at the current time, 
which is probably the worst of all of the agencies in the 
intelligence community.
    Ms. Edwards. Thank you. And Dr. Robyn, I want to go to 
something that our Ranking Member Norton suggested as she was 
asking questions, and that goes to the concern that, whether it 
is true or not--and we can go around and around about that--
that there, at least in my jurisdiction, has been some 
perception that the GSA has not always acted as a fair arbiter 
and that, in fact, building on what Ranking Member Norton 
discussed, that, in fact, that GSA, in some instances, has been 
perceived to actually favor agency requests that can sometimes 
take a back seat to what is the best benefit of the bargain for 
the taxpayer.
    And I would only say this, that this is a new day. This is 
a new Congress. And this is a new process for the FBI and for 
the GSA. And I would just strongly, strongly urge you to take 
those criticisms into consideration, and to move forward in a 
very different kind of way. Because there are a lot of eyes 
watching the GSA. And when you look at the amount of money that 
is currently spent by the FBI on its operations, on its leasing 
operations, $168 million, if there is any potential, given the 
choices, to make sure that the taxpayer saves a boatload of 
money, all of us have an interest in doing that in this very 
constrained fiscal environment.
    And, at the same time, we want to make sure that the agency 
and its workforce are able to meet the mission of the Bureau in 
a location that is acceptable and is secure, and that the 
process itself is open, and that GSA is the one who is leading 
the process, and not following, because of one agency head or 
other. And that is not to disparage at all the FBI, but to say 
that we just want a fair and open process, and all of our 
jurisdictions want to have the capacity to compete. Thank you, 
Mr. Chairman.
    Mr. Barletta. Thank you, Ms. Edwards. And, Mr. Perkins, 
what would be an appropriate limit for the cost of a new 
facility on a per-square-foot basis?
    Mr. Perkins. I would have to get back to you with an exact 
answer on that, sir, as far as the per-square-foot basis goes. 
I think in an earlier--I wanted to clarify something as well on 
one of the questions on the facility itself involving the J. 
Edgar Hoover Building. If we were to trade the Hoover Building, 
it would be for the land cost involved. And thus, we would then 
utilize, in the public-private partnership, the funding and 
financing of a private entity to build and construct that 
building over time.
    Mr. Barletta. The reports have some cost. Would they be 
accurate? Can we rely on the report?
    Mr. Perkins. Go ahead, Pat.
    Mr. Findlay. Yes. We have checked any changes in 
construction design cost, and they are very, very close. And 
there was some contingencies and allowances built in, so those 
still appear to be very valid.
    Mr. Barletta. And what is the proposed rental rate or cap 
you would propose for a consolidated headquarters without the 
Hoover Building exchange?
    Mr. Findlay. Both our report and, really, the private 
sector through Urban Land Institute confirmed that that could 
definitely be done at around $54 per square foot. If I could 
point out, though, the estimate is the Government would be 
receiving something in excess of $5 per square foot for the 
ground lease per the approach that we are using.
    Mr. Barletta. And what would the estimated rental rate be 
with an exchange?
    Mr. Findlay. A whole lot better.
    Mr. Barletta. Dr. Robyn, how can Congress ensure adequate 
cost controls? And is setting a maximum rental rate one way to 
control those costs?
    Ms. Robyn. I don't--I am not sure what the answer--I mean I 
think working--we will work closely with you. I don't know 
whether that is the best way. I mean I think the--we will rely 
fundamentally on competition to get the best rate. I am not 
sure how else to answer that.
    I mean we do set--we set caps within the national capital 
region on leased rental rates. And you know, frankly, as an 
economist, I have mixed feelings about that. It kind of amounts 
to rent control, but we do that. We limit the amount that 
agencies can pay for leases. So it is a--but at the end of the 
day we are relying on competition to get us the best deal for 
the taxpayer.
    Mr. Barletta. Mr. Perkins, one of the areas that can cost 
to increase are obviously change orders and changing 
requirements. How will the FBI ensure that its requirements are 
all thoroughly identified upfront, so there are no costly 
change orders or increases, once the project begins?
    Mr. Perkins. One of the most important ways is we will have 
a complete development team formed within the FBI that will 
work closely with the GSA to go forward. We are quickly--well, 
we have already realized the mammoth scope of what this 
undertaking would be that would require significant oversight 
internally within the FBI, as well as with our partners at GSA, 
going forward. So we would have a dedicated team of individuals 
who would solely be working on this project to ensure those 
issues and to ensure both requirements were met and cost 
controls were in place.
    Mr. Barletta. Thank you. Ms. Norton?
    Ms. Norton. So far as you know, Dr. Robyn, has the GSA ever 
engaged in developing a facility using the flexibility that we 
have now given you?
    Ms. Robyn. You mean the exchange----
    Ms. Norton. Have you ever had any experience?
    Ms. Robyn. Using the exchange authority? Is that----
    Ms. Norton. Or 412 authority, 585 authority, the different 
authorities, some of which you already had----
    Ms. Robyn. Yes.
    Ms. Norton [continuing]. But the subcommittee made it even 
more explicit a number of years ago. Have you any experience 
using flexible authority?
    Ms. Robyn. We have----
    Ms. Norton. To develop a construction.
    Ms. Robyn. We have used the exchange authority in limited 
ways, nothing this large.
    Ms. Norton. Because there will be some who wonder whether 
you can manage this authority. It took you so long to use it, 
took GSA so long to use it.
    Ms. Robyn. Well, it----
    Ms. Norton. It is not exactly unknown to people engaged in 
real estate, but--and many of your staff have come out of, of 
course, professional real estate.
    But how do you plan to organize internally to do what you 
have never done before, and what you seemed unwilling to do 
before? And I must say, as I ask this question, that I am 
cheered that your administrator is Mr. Tangherlini. This is an 
administrator who comes from OMB, and that may have something 
to do with the fact that OMB now understands more about the 
costs it puts on the agency by not allowing that flexibility.
    But now that you have it for the FBI, and you have never 
really used it, how will you organize the GSA to use it? Or 
will you bring in consultants to help you manage this 
authority?
    Ms. Robyn. I think both. Let me just speak to why we 
haven't used it. And I am new here, I have only been here 6 
months. But I think our preference, as I have said, is always 
to do Federal construction. That is always the----
    Ms. Norton. No, I understand that.
    Ms. Robyn [continuing]. The least cost approach. So in----
    Ms. Norton. I understand that. But, for example, you are 
not going to be able to do that----
    Ms. Robyn. Right.
    Ms. Norton [continuing]. With the remainder of the 
Department of Homeland Security, and we have heard nothing from 
the GSA about how it purports to continue building that 
facility, also a secure facility. And, of course, this is going 
to end up being a pilot, because if you can do it here----
    Ms. Robyn. Yes.
    Ms. Norton [continuing]. Perhaps you can do it----
    Ms. Robyn. Right.
    Ms. Norton [continuing]. There.
    Ms. Robyn. Yes, yes. I----
    Ms. Norton. But we know what--everybody knows that if the 
chairman and I wanted to buy a house, and we had the cash to 
put down, it would cost us less than taking a mortgage. So we 
understand that.
    Ms. Robyn. Right.
    Ms. Norton. And nobody does that, even those who can afford 
it don't do that. So you can't afford it this time. You have 
not done it before. How will--how are we to have confidence 
that you can do it? Are you relying only on staff that you have 
who have been building, for example, the Department of Homeland 
Security so well? Or will you be relying as well on others who 
have----
    Ms. Robyn. Well----
    Ms. Norton [continuing]. Who have had this experience?
    Ms. Robyn. I think our--I mean we have asked for--I don't 
think that there has been a problem with the way we have 
managed the Department of Homeland Security. We have not gotten 
the funding----
    Ms. Norton. You managed it very well, but you weren't using 
this authority.
    Ms. Robyn [continuing]. That we requested--well, yes.
    Ms. Norton. We got you more than $2 billion.
    Ms. Robyn. Right.
    Ms. Norton. And I am asking you----
    Ms. Robyn. Yes.
    Ms. Norton [continuing]. When you now have new flexibility 
that you haven't used before, can you tell this subcommittee 
that you can manage that? And if so, is it going to take 
reorganization of some kind within the GSA? Are you relying on 
consultants? That is my direct question.
    Ms. Robyn. It is both. It is both. It is not going to 
require a reorganization of the agency. We have done 
headquarters projects before. The Department of Transportation 
headquarters project you are very familiar with. That is one 
where it is a capital lease. We will be paying rent on the 
Department of Transportation headquarters for 30 years, and 
then we will have to sign another lease and pay rent for 
another 30 years. We don't want to do that. So we are trying 
another approach.
    But it is not fundamentally different than what we were--
what we have been doing. And I think it does reflect the acting 
administrator's knowledge of OMB and scoring challenges.
    Ms. Norton. Well, I agree with you, Dr. Robyn. I think you 
have all along had the capacity and the skill to do it. You 
haven't had the will to do it. And now that Mr. Tangherlini has 
stepped up and you have that kind of leadership, that increases 
my confidence that the agency can pull it off.
    Thank you, Mr. Chairman.
    Mr. Barletta. Ms. Edwards?
    Ms. Edwards. Mr. Chairman, I just have one last question. 
And it relates to the question that you were asking of Dr. 
Robyn, and it has to do with the idea of--that you either 
encourage competition, as you have done--as you suggested, 
through the RFI process, or setting maximum lease rates.
    And I want to ask you about that, because there has been 
some concerns expressed over a period of time by me and others 
on this committee that when you set--when GSA sets maximum 
lease rates, that that actually has not been done fairly 
through the region, which has greatly disadvantaged some 
jurisdictions over other jurisdictions.
    And so, if the GSA chooses to go that route, do we have 
assurances that the--a maximum lease rate that you would set 
would be equally set in the region, so that everybody in the 
region would be competing fairly? Or would you continue the 
process which is only true here in the Metropolitan Washington 
area, where one county or one jurisdiction has a different rate 
than another jurisdiction, which really discourages 
competition?
    Ms. Robyn. Those rates apply to a scenario where we would 
be leasing space. And I would hope we would not be leasing 
space. So I will leave it at that.
    I think you are raising a broader issue, and I am torn on 
that broader issue. I can see arguments on both sides. But for 
purposes of this, I would hope that won't be an issue, because 
I would hope that we won't be in leased space.
    Ms. Edwards. Well, I am just suggesting to you right now 
that, going forward, even if that were ever a consideration, I 
just think it would be a nonstarter for GSA again to pursue a 
route of valuing leased space differently in the same 
metropolitan region where all of us have to operate under the 
same constraints.
    Ms. Robyn. Yes.
    Ms. Edwards. And--but I do share the view that the 
preference is the kind of competition that you envision that 
allows all of us in the region to compete fairly.
    Ms. Robyn. Let me just add that when we set rents, even in 
our own space, it does--we do it using commercial methodology, 
and it reflects the commercial rents in the area.
    So, it is--we don't set it for the entire NCR, we do--but 
it does--it reflects what commercial rents are in the area. 
But----
    Ms. Edwards. As I finish, just to reiterate----
    Ms. Robyn. Yes.
    Ms. Edwards [continuing]. The Metropolitan Washington area 
is the only----
    Ms. Robyn. Yes.
    Ms. Edwards [continuing]. Region in the country where you 
do that. Every other region, those kind of rates are set 
regionally, except here, with zero justification, zero 
explanation. And I--we digress from the FBI, but I want to make 
this very clear for our record, because time and again GSA has 
appeared before this committee and can't even offer a history, 
a record, an explanation about why those differences exist, 
except that they do. And they greatly disadvantage my county in 
Prince George's County. And we are not going to go forward like 
that. Let's just do a competition.
    Mr. Chairman, I yield back.
    Mr. Barletta. Thank you. Dr. Robyn, earlier you said that 
it was premature to talk about a prospectus for the project. 
Yet the committee needs a prospectus, or least a cost 
information that is included in the prospectus, in order to 
authorize the project. So when will the GSA provide the 
committee with the information and the request for the 
committee to move forward?
    Ms. Robyn. I think we need to digest the 35 responses that 
we got to the--one of them was larger than a bread box, so 
there is a lot of material for us to digest. But as soon as we 
have something meaningful, I would be happy to have--to brief 
you on that. I don't want to commit to--I am not--you know, 
hopefully the next step will be an RFP, but I don't want to 
make any commitments until we see what we got.
    Mr. Barletta. I will take you up on that offer.
    Ms. Robyn. Thank you.
    Mr. Barletta. If there are no further questions, I would 
ask unanimous consent for the record that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearings.
    [No response.]
    Mr. Barletta. Without objection, so ordered. I would like 
to thank our witnesses again for their testimony today.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:08 p.m., the subcommittee was adjourned.]

</pre></body></html>
